ARVEST BANK

F03-Y472-0 -0520

CARDHOLDER AGREEMENT
IMPORTANT: This Cardholder Agreement, which includes the Account
Opening Disclosures, (“Agreement”) is your contract with us governing
the credit card account (“Account”). You have accepted the terms and
conditions of this Agreement if you sign, use, or allow others to use, your
Credit Card. You also have accepted this Agreement if within 30 days of
receipt of the Credit Card you have not destroyed the Credit Card and
informed us in writing at Arvest Bank, P.O. Box 6139, Norman, Oklahoma
73070, or by phone at 1-800-356-8085 that you choose not to accept
this Agreement.
The term “Credit Card” refers to one or more Credit Cards or other
access devices (including an Account number) that we have issued to
you or someone else with your authorization to access credit under this
Agreement.
The words “you” and “your” refer to each person who is contractually
liable under this Agreement. If we issue you a joint Account, each of you
agrees to be liable individually and jointly for the entire amount owed on
the Account; and any notice we send to an address provided by either of
you for the Account will serve as notice to both of you.
The words “we”, “our” and “us” refer to Arvest Bank, Fayetteville,
Arkansas, which is the issuer of your Credit Card.
The following information is provided as required by the Federal
Consumer Credit Protection Act and the Oklahoma Uniform Consumer
Credit Code. This information is a part of the Agreement.

YOUR ACCOUNT
RESPONSIBILITY FOR OBTAINING CREDIT. You agree to accept
responsibility and pay all amounts due for credit you have obtained from
us, plus any Fees and Interest Charges. You obtain credit from us when
Purchases, Cash Advances, or Balance Transfers are made using your
Account, by:
1. You;
2. An Authorized User; or
3. Other people, if you or an Authorized User give them access to use
your Account.
You must pay us for all amounts due on your Account. This
includes transactions made by an Authorized User, including
transactions for which you may not have intended to be liable,
even if the amount of those transactions causes a Credit Limit to
be exceeded.
CREDIT LIMIT. We will let you know your Credit Limit when you open
your Account. We may establish a lower Cash Credit Limit for Cash
Advances. Your available Credit Limit and Cash Credit Limit will appear
on each Monthly Periodic Statement. We may (at our option and in
accordance with all applicable laws) increase or decrease your Credit
Limit and Cash Credit Limit at any time without prior notice. You must
keep your Account balance below your Credit Limit. If you do not, we
may request immediate payment of the amount by which you exceed it.
CONSUMER PURPOSES. You may use your Account for personal,
family, or household purposes. You may not use your Account for
business or commercial purposes.
ILLEGAL TRANSACTIONS. You may not use your Account for illegal
transactions, but if you do, this Agreement still applies, and you must pay
us for those transactions. You also may have to pay the Card Network
and/or us for any damages and expenses resulting from that use. In
addition, we may close your Account.

AUTHORIZED USERS
ISSUING CREDIT CARDS TO AUTHORIZED USER(S). You may ask
us to issue a Credit Card on your Account to one or more Authorized
Users. You must obtain permission from each Authorized User and
make a copy of this Agreement available to each Authorized User prior to
each addition. We will approve your request to issue a Credit Card to an
Authorized User in our sole discretion.
REMOVING AUTHORIZED USERS. You must notify us to remove an
Authorized User from your Account. If we remove an Authorized User, in
some cases we may close your Account, open a new Account and issue
you a new Credit Card. You are responsible for any transactions made
by an Authorized User on your Account even if the posting date shown
on your Monthly Periodic Statement for that transaction occurs after the
date you ask us to remove the Authorized User from your Account.
ACCOUNT USE BY AUTHORIZED USERS. Authorized User(s) can
access your credit by conducting Purchases and Cash Advances in the
same manner as Primary and Joint cardholders. Use of your Account
by an Authorized User is subject to the terms of this Agreement. The
Authorized User(s) you add to your Account will not be considered a
party to your Agreement, cannot make any Account changes, and will
not be responsible to us for any amounts owing under the Agreement.
You will be responsible for all Purchases, Cash Advances, Fees, and
Interest Charges incurred by each Authorized User, including those made
by others when the Authorized User allows them to use your Account.
Your credit history can and will refect Authorized User Account use.
Authorized Users that have been issued a Card can:
• Report lost or stolen Cards
• Request statement copies
• Initiate billing disputes
• Make payments
• Obtain Account information such as transaction histories
ACCOUNT INFORMATION RIGHTS FOR AUTHORIZED USERS. You
allow us to discuss your Account with an Authorized User. This includes
giving him or her access to your Account information and history. You
also agree that an Authorized User may use and receive information
about the Account the same way you do. An Authorized User can not
add other Authorized Users, adjust the Credit Limit or close the Account.
CREDIT REPORTING. Unless the Authorized User has been issued a
Credit Card on the Account and is your spouse, we do not report the
Authorized User’s credit activity related to this Account to Consumer
Reporting Agencies. This means the Authorized User’s credit bureau
report will not be impacted by using this Account.
INFORMATION ABOUT AUTHORIZED USERS WHO ARE A SPOUSE. If
you ask us to issue a Credit Card to your spouse as an Authorized User,
you agree to give us certain personal information about them. You must
let them know that you will give us that information, you must have their
permission to do so, and you must have their permission to allow us to
share information about them as allowed by applicable law. This includes
information we may get from you, any Authorized User, and others. It
also includes information about the transactions on the Account. We
report information about this Account to Consumer Reporting Agencies.
This information may appear on your spouse’s credit report. This could
include information about: Late Payments, Overlimit Amounts, Returned
Payments, and other violations of this Agreement. You must let them
know that we report Account information in their name.
CREDIT LIMITS AND ACCOUNT INFORMATION RIGHTS. You must
assign a designated Credit Limit amount to each Credit Card Authorized
User. The Credit Limit for any Authorized User cannot exceed the
Credit Limit applicable to the primary cardholder’s Credit Limit, and the
total amount outstanding on the Account cannot exceed the primary
cardholder’s Credit Limit. The Credit Limit amount you assign will reset
each month on the date of your Monthly Periodic Statement, and the
additional card holder Authorized User will have access to their entire
Credit Limit, subject to the total amount of available credit on the
Account. Monthly Periodic Statements, disclosures and notices for the
primary cardholder’s Credit Card and each Authorized User’s additional
Credit Card will be sent only to the address we have for you in our fles.

VARIABLE ANNUAL PERCENTAGE RATE &
INTEREST CHARGES
ANNUAL PERCENTAGE RATE (APR). The APRs and periodic rates are
shown on your Account Opening Disclosures.
VARIABLE RATES. If a rate is a variable rate, we calculate the rate by
adding a percentage to the Prime Rate. This percentage is shown on your
Account Opening Disclosures. To calculate the Prime Rate, we use the
U.S. Prime Rate published in The Wall Street Journal (Journal) on the last
day of each month. If the Journal is not published on that day, then see
the immediately preceding edition. A variable APR can either increase or
decrease, as the Prime Rate changes. A change in a variable APR will
be effective for the billing cycle that ends in the second month after the
Prime Rate change. We use the APR to determine your Interest Charge
on any outstanding balance you have not paid in full by the Payment
Due Date. If an APR increases, your payment amount and the Interest
Charges may also increase. A variable APR applicable to your Account
can change each billing cycle. Your APR, in no event, will be higher than
applicable state usury laws allow.
AVERAGE DAILY BALANCE. The amount of interest we charge you is
called an Interest Charge. We calculate your Interest Charges each billing
cycle by using the Average Daily Balance (including new transactions)
method. We do this separately for each balance category on your
Account (e.g. Purchases, Balance Transfers, Cash Advances, and each

promotional balance). For each balance category, to determine the
Average Daily Balance, we must frst calculate the daily balance.
To calculate the daily balance, we will:
• take the beginning balance of that balance category each day
(any credit balance is treated as a zero balance); then
• add any new transactions of that type that occurred on that day;
then
• subtract the applicable portion of any payments or credits; then
• subtract any unpaid Fees that have posted to that balance
category during the billing cycle; then
• subtract any unpaid interest that may have been charged to you
for transactions in that balance category.
Then, to calculate your Average Daily Balance, we will:
• add up all the daily balances for the billing cycle; then
• divide the total by the number of days in the billing cycle.
If a transaction occurred before the start of a new billing cycle but
posts afterwards, we will include that transaction on the frst day’s
transactions of the new billing cycle.
You authorize us to use equivalent processes that result in substantially
similar outcomes except for minor variations due to rounding.
CALCULATING INTEREST CHARGES. Interest Charges begin to accrue
on Purchases (unless your Account is subject to a Grace Period, see
“GRACE PERIOD” section of this agreement), Balance Transfers, and
Cash Advances on the transaction date, and will continue to accrue until
you pay the entire New Balance in full. The Interest Charges that accrue
up to that billing cycle’s statement closing date will be shown on the
Monthly Periodic Statement for that billing cycle.
To calculate Interest Charges each billing cycle, we will:
• determine your monthly periodic rate (“MPR”) by dividing the
applicable APR by 12; then
• multiply the Average Daily Balance for that balance category by
the MPR.
GRACE PERIOD FOR PURCHASES. You may have an interest-free
period (“Grace Period”) to repay your balance for Purchases before
Interest Charges are imposed.
We will not charge you interest on new Purchases when:
• your New Balance shown on your Monthly Periodic Statement
for the previous billing cycle is paid in full by the Payment Due
Date;
• your Previous Balance is zero; or
• your Previous Balance is a credit balance.
If none of these conditions occur, Interest Charges will be imposed on
Purchases from the date they are posted to your Account. The next time
you pay your entire New Balance in full by the Payment Due Date, the
Grace Period will apply to new Purchases in the billing cycle they are
made. The next billing cycle in which you pay your entire New Balance
in full by the Payment Due Date, the Grace Period will again apply to
Purchases.
The Grace Period applies to Purchases only. There is no Grace Period
for Cash Advances and Balance Transfers. There is no time period within
which to repay Cash Advances or Balance Transfers without incurring
Interest Charges.
NEW BALANCE. To calculate your New Balance at the end of each billing
cycle, we take your balance at the start of your billing cycle (Previous
Balance) and:
• add any new transactions posted during the billing cycle; then
• subtract any credits or payments posted during the billing cycle;
then
• add any Interest Charges or Fees incurred during the billing cycle;
and
• make any applicable adjustments (such as disputed charges).

PAYMENTS
WAYS TO MAKE YOUR PAYMENT. Payments must be made by the
Payment Due Date shown on your Monthly Periodic Statement. If your
payment falls on a weekend or legal holiday it will be due the following
business day. You can make payments in the following ways:
• in person at any Arvest Branch;
• by contacting us by phone utilizing either the Interactive Voice
Response system (IVR) or Customer Service agent;
• by mailing your payment to the address shown on your Monthly
Periodic Statement;
• by utilizing a bill pay service provided by another banking
institution; or
• by making an electronic payment through your online Account.
You can set up your online Account at www.arvest.com.
You must pay in U.S. dollars. Please do not send cash.
All checks must be drawn on funds on deposit in the United States.
We may refuse to accept a payment in a foreign currency. If we do accept
it, we will charge your Account our cost to convert it to U.S. dollars.
We can accept late payments, partial payments or payments marked
“payment in full” or with any other restrictive endorsement without losing
any of our rights under this Agreement.
If a third party makes a payment on your Account and we return all or a
part of such payment, then we may adjust your Account for any amount
returned. We reserve the right to defend ourselves against any demand
to return funds we have received, and may agree to a compromise of the
demanded amount as part of a settlement.
MINIMUM MONTHLY PAYMENT. You must make all monthly payments
by the Payment Due Date shown on your Monthly Periodic Statement.
You have the option to pay your Account in full at any time. You may
choose to pay less than the entire New Balance but not less than the
Minimum Payment due, unless we require immediate payment of your
entire outstanding balance in full (see default section). Paying only the
Minimum Payment due will extend the time it takes you to pay off your
outstanding balance.
MINIMUM PAYMENT DUE CALCULATION. The Minimum Payment
due is the minimum dollar amount shown on your Monthly Periodic
Statement that must be paid by the due date that is specifed each month.
If the New Balance is less than $20.00, the Minimum Payment will equal
the New Balance. Otherwise, to calculate your Minimum Payment we
start with any past due amount or over limit amount. We then add the
greater of:
• $20.00, or
• the billed Interest Charges, any billed Late Payment Fees, plus 1%
of the New Balance.
We round the amount of the Minimum Payment Due to the nearest dollar.
The New Balance amount will include Fees that have posted to your
Account. Fees can include Returned Check Fees, Cash Advance Fees,
Balance Transfer Fees, or Late Payment Fees (we describe these Fees
in the “FEES” section of this Agreement). The New Balance, including
Fees, will be used to calculate the Minimum Payment Due.
APPLICATION OF PAYMENTS TO YOUR ACCOUNT. We reserve the right
to apply payments and credits in the manner we choose, provided we
comply with applicable Federal and State laws. We apply payments to
your Account by:
• crediting the amount of your payment that is equal to the
Minimum Payment due, frst to any Interest Charges and other
charges and fees posted to your Account; then
• if your Account has balances with different APRs, we will credit
the balances with lower APRs frst.
We apply the portion of your payment that is more than the required
Minimum Payment due by:
• frst applying the excess amount to balances with the highest
APRs; then
• applying the remaining amount of your payment to balances
with lower APRs (if any), in descending APR order.
Payments received Monday through Friday at any Arvest branch during
branch hours will be credited the day they are received. If the payment
due date falls on a Saturday, Sunday, or a legal holiday, the payment
will be considered made on time when it is made on the next business
day. Payments received by mail by 5pm Central Time will be credited on
that business day. We may delay increasing your available credit by the
amount of any payment that we receive for up to ten days.
If you pay more than the entire outstanding balance of your Account, we
will credit the excess to your Account, unless you request we send you a
check for the excess payment once the payment clears.

FEES
ANNUAL FEE. If Your Account has an annual fee, it is shown on the
accompanying Account Opening Disclosure (Disclosure).
RETURNED CHECK FEE. We will charge your Account a returned
payment fee, as indicated on the Disclosure, each time a check or
electronic payment cannot be processed or is not honored even if the
payment is honored after we resubmit it. This fee will never exceed the
Minimum Payment Due that was due immediately prior to the date on
which the payment was returned to us.
(over please)

CASH ADVANCE FEE. We will charge a Cash Advance Fee as shown
on the Disclosure, in addition to the Interest Charge. All Cash Advances,
including Cash Advances made with convenience checks, are subject to
a minimum of $4.00 each time cash is advanced. We will charge Cash
Advance Fees on cash-like transactions made with your Credit Card.
Cash-like transactions include purchases of traveler’s checks, money
orders, foreign currency, lottery tickets, casino and similar in-person
betting transactions, and wire transfers.
BALANCE TRANSFER FEE. We will charge a Balance Transfer Fee as
shown on the Disclosure, in addition to the Interest Charge, if any. All
Balance Transfers are subject to a minimum of $10.00 each time a
balance is transferred from another creditor to your Account.
LATE PAYMENT FEE. We will charge a Late Payment Fee, as disclosed
on the accompanying Disclosure, if you do not pay at least the Minimum
Payment due on or within 10 days after the Payment Due Date. This fee
will never exceed the Minimum Payment due that was due immediately
prior to the date on which the fee was assessed.
FOREIGN TRANSACTION FEE. We will charge a Fee, as shown on the
Disclosure, for each Foreign Transaction. A “Foreign Transaction” is any
transaction (1) made in a foreign currency, or (2) made in U.S. dollars
if the transaction is made or processed outside of the United States.
Foreign Transactions include, for example, online transactions made in
the U.S. but with a merchant who processes the transaction in a foreign
country.
FOREIGN EXCHANGE/CURRENCY CONVERSION. When you use your
Credit Card to make a Purchase or Cash Advance, or when you receive a
credit in a foreign currency, the transaction will be converted into a U.S.
dollar amount by VISA using their currency conversion procedures, and
then they will send us the transaction amount. The exchange rate will
be determined using either the range of rates available in the wholesale
currency markets for the processing date (which may be different from
the rate VISA receives) or a government-mandated rate in effect on that
date. The exchange rate used by Visa may differ from the rate on the
date of your transaction. If you receive a credit on a different day than
the original transaction date, the exchange rate of the credit could be
different from the original transaction amount. Foreign purchases may
include online purchases from foreign merchants. You agree to accept
the converted amount in U.S. dollars.

TRANSACTIONS
WAYS TO USE YOUR CARD ACCOUNT. You may purchase goods or
services when you present your Credit Card or when you provide your
Account number and Account information to participating merchants.
You can provide your Account number to merchants either in person,
online, or by telephone. You may use your Credit Card to receive Cash
Advances in person from us or other participating fnancial institutions,
or by using one of the convenience checks we may periodically send to
you. You may transfer balances from other credit cards not issued by
us to your Account. Cash Advances and Balance Transfers are subject
to fees and Interest Charges, when applicable, and your available Credit
Limit. We are not responsible when anyone refuses to honor your Credit
Card or convenience checks.
• “Purchase” means the use of your Account to purchase or lease
goods or services at participating merchants.
• “Balance Transfer” means a balance transferred from another
creditor to your Account.
• “Cash Advance” means the use of your Account to: obtain
cash from participating automated teller machines, fnancial
institutions or other locations; purchase lottery tickets, money
orders, casino chips, foreign currency, or similar items.
• “Convenience Check” means any check we send to you to
access your Account. The check will indicate whether it will be
treated as a Purchase, Balance Transfer, or Cash Advance. You
may not use these checks to pay any amount you owe us.
RETURNS AND REFUNDS. Cash refunds will not be issued to you when
you return merchandise purchased with your Credit Card. You will receive
a credit to your Account for the amount of the returned merchandise. The
merchant is responsible for issuing the credit. It is not our responsibility
when the merchant does not promptly issue the credit owed to you.

DEFAULT AND ACCOUNT CANCELLATION
DEFAULT. You will be in default of this Agreement if one of the following
occurs:
• you fail to make the full amount of your Minimum Payment when
due;
• we reasonably believe you are unable or unwilling to pay;
• you fle bankruptcy, or another insolvency proceeding is fled by
you or against you;
• you die or are declared legally incompetent or incapacitated; or
• you fail to perform any condition or keep any promise of this or
any Credit Card agreement you have made with Arvest.
IMMEDIATE PAYMENT OF OUTSTANDING BALANCE IN FULL. If you
are in default, we have the right to require immediate payment of your
entire outstanding balance. If you do not pay the entire outstanding
balance, we can require you to pay any expenses associated with
collecting the amount you owe. We may refer your Account for collection
to an attorney who is not a salaried employee. If we do this, we can
require you to pay a reasonable attorney’s fee, as determined by the
amount established by the Administrator of the Oklahoma Department
of Consumer Credit.
CANCELLATION OF YOUR ACCOUNT. You may cancel your Account.
You will remain responsible for any amount you owe us under this
Agreement. Any joint Accountholder may cancel a joint Account.
However, both of you will remain responsible for paying all amounts
owed. We may cancel, suspend, or not renew your Account at any time
without notice.
CREDIT AUTHORIZATIONS. We may not authorize a transaction for
security or other reasons. We will not be liable to you if we decline to
authorize a transaction or if anyone refuses your Card, Check or Account
number.
AUTOMATIC PAYMENTS. You may set up automatic billing or store
your Account information with a merchant, wallet provider, or other third
party. If your Account information changes, which may include billing
address, you authorize us to provide this updated information to any
such merchant, wallet provider, or other third-party at our discretion. You
must contact the merchant, wallet provider, or other third-party directly
or remove your Credit Card information from the merchant site, wallet
provider, or third-party if you wish to stop automatic billing or Account
updates.

CREDIT REPORTING
CREDIT INVESTIGATIONS. You authorize us to investigate and use your
credit information to evaluate your credit history, personal or fnancial
standing, and employment. You also authorize us to report information
about your Account to other creditors and credit reporting agencies. We
may share negative account information regarding your late payments,
missed payments, or other defaults on your Account with consumer
reporting agencies. This information may be refected in your credit
report. If you believe we have reported incorrect information about your
Account, call us at 1-800-356-8085 or write to us at Arvest Bank, P.O.
Box 6139, Norman, OK, 73070. Please include your name, address,
phone number and Account number and information that is being
disputed. We will investigate the matter for you. If we fnd we have made
an error, we will request a correction from each credit bureau to which
we have reported. If we do not fnd we have made an error, we will notify
you.

COMMUNICATIONS AND
INFORMATION SHARING
COMMUNICATING WITH YOU. Consent to contact by electronic and
other means. If you have provided us with your cell phone number, or
another number that you later convert to a cell phone number, you agree
that we (and our affliates, agents, and contractors) may contact you
at this number. You also agree to receive calls and messages, such as
pre-recorded messages, calls, and messages from automated dialing
systems, or text messages. We may contact you at any address that
you may provide to us from time to time. We may use any means of
communication, including, but not limited to, postal mail, electronic mail,
telephone, or other technology, to reach you. We may contact you for
any lawful reason, including for the collection of amounts owed to us
from time to time in compliance with our Privacy Policy in effect. No
such contact will be deemed unsolicited. Normal cell phone charges
may apply. You may contact us at (800) 356-8085 during business
hours to ask that we not contact you using any one or more methods
of technologies.
TELEPHONE MONITORING AND RECORDING. From time to time, we
(and our affliates, agents, and contractors) may monitor and/or record
telephone calls regarding your Account with us to assure the quality of
our service, and you agree to any such monitoring or recording. We treat
all customer calls as confdential.

NOTICES. All notices are considered delivered to you as of the date
they are mailed, not the date you receive them. We will mail all required
notices to you at the address we have on fle. You agree to notify us
immediately if your address changes. You can call (800) 356-8085 or
mail your change of address to Arvest Bank, P.O. Box 6139, Norman, OK,
73070. We may also update your address if we receive notifcation by
the U.S. Postal Service that your address has changed.

CHANGES TO YOUR AGREEMENT
AGREEMENT CHANGES. We have the right to add, delete, or change any
term of this Agreement at any time, with written notice to you as required
by state or federal law. If required by law, we will give you advance
written notice of the change(s) and a right to reject the change(s). We
will not charge any fee or interest charge prohibited by law.
INVALIDITY. If one or more provisions of this Agreement become invalid
or unenforceable, the remaining terms and conditions will stand on their
own and will not be affected.

LIABILITY FOR UNAUTHORIZED USE
LOSS OR THEFT OF CARD. You agree to notify us immediately if
your Credit Card is lost or stolen, or if you suspect your Credit Card
or Account number has been used without your permission, by calling
1-800-356-8085. Calling us reduces the chances of a loss. You may
also contact us at www.arvest.com, or write to us at P.O. Box 6139,
Norman, Oklahoma 73070. You may be liable for any unauthorized use
that occurs before you tell us, but your liability for any unauthorized use
will not exceed $50.

MISCELLANEOUS

ASSIGNMENT. We may sell, assign, or transfer your Account or any
portion of it without notice to you. You may not sell, assign, or transfer
your Account without frst obtaining our prior written consent.
NON-WAIVER. We may delay enforcing or not enforce any of our rights
under this Agreement without losing or waiving any of them.
APPLICABLE LAW. This Agreement is made in Oklahoma and we extend
credit to you from Oklahoma. This Agreement is governed by Oklahoma
law (without regard to its confict of laws principles) and by applicable
federal law. You will not be liable for Interest Charges or other charges in
excess of the maximum allowed by law.
IMPORTANT INFORMATION REGARDING THE MILITARY LENDING
ACT. Federal law provides important protections to members of the
Armed Forces and their dependents relating to extensions of consumer
credit. In general, the cost of consumer credit to a member of the Armed
Forces and his or her dependent may not exceed an annual percentage
rate of 36%. This rate must include, as applicable to the credit transaction
or Account: the costs associated with credit insurance premiums; fees
for ancillary products sold in connection with the credit transaction; any
application fee charged (other than certain application fees for specifed
credit transactions or accounts); and any participation fee charged (other
than certain participation fees for a credit card account).
If you are covered by the Military Lending Act, notwithstanding anything
to the contrary in this Agreement, to the extent required by the Military
Lending Act, nothing in this Agreement will be deemed a waiver of the
right to legal recourse under any otherwise applicable provision of state
or federal law.
If you would like to hear about your Military Lending Act rights and
payment information about this Agreement, please contact us at
1-877-443-6037.

YOUR BILLING RIGHTS
YOUR BILLING RIGHTS – KEEP THIS NOTICE FOR FUTURE USE. This
notice tells you about your rights and our responsibilities under the Fair
Credit Billing Act.
WHAT TO DO IF YOU FIND A MISTAKE ON YOUR STATEMENT
If you think there is an error on your statement, contact us in writing at
Arvest Bank, P.O. Box 6139, Norman, Oklahoma 73070. You may also
contact us on the web at www.arvest.com. In your communication, give
us the following information:
• Account information: Your name and Account number
• Dollar Amount: The dollar amount of the suspected error
• Description of the problem: If you think there is an error on your
bill, describe what you believe is wrong and why you believe it is
a mistake
You must contact us as follows:
• Within 60 days after the error appeared on your statement
• At least three (3) business days before an automatic payment is
scheduled, if you want to stop payment on the amount you think
is wrong
You must notify us in writing or electronically of potential errors. If you
call us, we are not required to investigate any potential errors, and you
may have to pay the amount in question.
WHAT WILL HAPPEN AFTER WE RECEIVE YOUR WRITTEN OR
ELECTRONIC COMMUNICATION
When we receive your communication, we must do two things:
1. Within 30 days of receiving your communication, we must tell
you that we received it. We will also tell you if we have already
corrected the error.
2. Within 90 days of receiving your communication, we must either
correct the error or explain to you why we believe the bill is
correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as
delinquent on that amount.
• The charge in question may remain on your statement, and we
may continue to charge interest on that amount.
• While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
• We can apply any unpaid amount against your Credit Limit.
After we fnish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in
question or any interest or other charges related to that amount.
• If we do not believe there was a mistake: You will have to pay the
amount in question, along with applicable interest and charges.
We will send you a statement of the amount you owe and the date your
payment is due. If you do not pay the amount you owe, we may report
you as delinquent.
If you receive our explanation but still believe your bill is wrong, you must
contact us in writing or electronically within 10 days telling us you still
refuse to pay. If you do this, we cannot report you as delinquent, and
we must let those organizations know when the matter has been settled
between us.
If we do not follow all the rules above, you do not have to pay the frst
$50.00 of the amount you question, even if the bill is correct.
YOUR RIGHTS IF YOU ARE DISSATISFIED WITH YOUR CREDIT CARD
PURCHASES
If you are dissatisfed with the goods or services you have purchased
with your Credit Card and you have tried in good faith to correct the
problem with the merchant, you may have the right not to pay the
remaining amount due on the Purchase. To use this right, all of the
following must be true:
1. The Purchase must have been made in your home state or within
100 miles of your current mailing address, and the purchase
price must have been more than $50.00. (Note: neither of these
are necessary if your purchase was based on an advertisement
we mailed to you, or if we own the company that sold you the
goods or services).
2. Cash Advances do not qualify. Cash Advances include the
following:
• transactions made with your Credit Card for cash withdrawals
at an ATM or with a teller
• cash-like transactions with your Credit Card (see FEES
section for a list of cash-like transactions)
• purchases made with a convenience check that accesses
your Account
3. You must not yet have fully paid for the Purchase.
If all of the criteria above are met and you are still dissatisfed with the
Purchase, contact us in writing at Arvest Bank, P.O. Box 6139, Norman,
Oklahoma 73070, or electronically at www.arvest.com. While we
investigate, the same rules apply to the disputed amount as detailed
above. After we fnish our investigation, we will tell you our decision. At
that point, if we think you owe an amount and you do not pay, we may
report you as delinquent.
IF YOUR CREDIT CARD IS LOST OR STOLEN, PLEASE CALL US AS
SOON AS POSSIBLE AT 1-800-356-8085.

F03-Y472-0 -0520

PERSONAL CREDIT CARD TERMS & CONDITIONS

Interest Rates & Interest Charges

0%

19.40%
12.40%

15.40%

0%

19.40%
12.40%

15.40%

19.40%

15.40%

ﬁ

Fees

•
$4 4%

•
•

1%

•
•

$20
$25

12.40%

